Audit Report




OIG-08-041
FINANCIAL MANAGEMENT: Controls Over Treasury’s Working
Capital Fund Expense Process Need Improvement
July 28, 2008




Office of
Inspector General
Department of the Treasury
Contents


Audit Report................................................................................................. 1

    Results in Brief............................................................................................ 2

    Background ................................................................................................ 3

    Finding and Recommendations ...................................................................... 5

        Control Weaknesses Existed in the Payment and Recording
           of WCF Expenses ............................................................................... 5
        Recommendations................................................................................... 13

    Results of WCF Customer Survey ................................................................. 16

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................             18
    Appendix     2:      Survey Questions and Results ................................................         20
    Appendix     3:      Management Response .........................................................         44
    Appendix     4:      Major Contributors to This Report ...........................................         47
    Appendix     5:      Report Distribution................................................................   48

Abbreviations

    ASM/CFO              Assistant Secretary for Management and Chief Financial Officer
    GAO                  Government Accountability Office
    IPAC                 Intragovernmental Payment and Collection
    OFM                  Office of Financial Management
    WCF                  Working Capital Fund




                         Controls Over Treasury’s Working Capital Fund Expense Process Need                 Page i
                         Improvement (OIG-08-041)
         This Page Intentionally Left Blank.




Controls Over Treasury’s Working Capital Fund Expense Process Need   Page ii
Improvement (OIG-08-041)
                                                                                  Audit
OIG
The Department of the Treasury
                                                                                  Report
Office of Inspector General




                  July 28, 2008

                  Peter B. McCarthy
                  Assistant Secretary for Management
                     and Chief Financial Officer

                  We performed an audit of the Department of the Treasury’s
                  Working Capital Fund (WCF). The audit’s overall objective was to
                  determine whether adequate controls over WCF were established.
                  We initially planned to determine, as sub-objectives of the audit,
                  whether: (1) WCF activities and programs are appropriate for
                  inclusion in the fund; (2) reconciliations between actual costs
                  incurred by WCF and costs billed to participating Treasury bureaus
                  exist, are timely prepared, and consistent; (3) costs charged by
                  WCF are appropriate; (4) costs charged by WCF to specific bureaus
                  are supported by appropriate documentation; and (5) assumptions,
                  data, processes, and models used by WCF to estimate its annual
                  costs are reasonable.

                  This report focuses on whether costs charged by WCF were
                  appropriate and whether costs charged by WCF to specific bureaus
                  were supported by appropriate documentation, objectives 3 and 4.
                  Because of unforeseen priorities, we plan to address the remaining
                  objectives in a subsequent audit.

                  For this review, we met with managers and staff from WCF’s
                  Corporate Office, Treasury’s Office of Financial Management
                  (OFM), select Treasury program offices, and a WCF contractor;
                  reviewed documentation related to expenses charged by WCF; and
                  administered a survey to WCF customers to determine satisfaction
                  with WCF. We did not conduct follow-up interviews with WCF
                  customers who completed the survey nor did we assess the
                  validity of comments made by these customers. However, we

                  Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 1
                  Improvement (OIG-08-041)
                       believe it is important to provide the survey results for WCF
                       management to consider in its operations.

                       We conducted our fieldwork from November 2006 through April
                       2008, at OFM in Washington, D.C. Appendix 1 contains a more
                       detailed description of our objectives, scope, and methodology.

Results in Brief
                       We found the following control weaknesses in the payment and
                       recording of WCF expenses:

                       •   WCF expenses were not always appropriately recorded between
                           shared and bureau-specific. OFM did not always correctly
                           record expenses for WCF customers and WCF program offices
                           did not adequately monitor recorded expenses.

                       •   Some WCF transactions were in violation of the Prompt
                           Payment Act because OFM did not pay interest penalties to
                           WCF vendors for late payments.1 Furthermore, OFM paid
                           interest to one vendor when it was not required. Late payments
                           to vendors result in increased and unnecessary interest costs to
                           WCF and its customers.

                       •   Supporting documentation was not available for some WCF
                           transactions. Without adequate documentation, the
                           appropriateness of transactions cannot be verified.

                       •   Some expenses were charged to WCF that it did not incur, and
                           WCF did not adequately monitor these charges to ensure that
                           they were appropriate. The failure to adequately monitor and
                           review expenses charged increases the risk that improperly
                           charged expenses may result in increased costs to WCF and its
                           customers.




1
 The Prompt Payment Act requires that federal agencies be assessed interest penalties for late
payments to vendors. Interest is to be calculated from the day after the payment due date through the
payment date at the interest rate in effect on the day after the payment due date. Penalties are to be
paid without regard to whether the vendor has requested such payment.

                       Controls Over Treasury’s Working Capital Fund Expense Process Need        Page 2
                       Improvement (OIG-08-041)
                      According to criteria on acceptable error rates in tests of controls
                      and based on the results of our testing, we concluded that controls
                      related to OFM processing of WCF transactions were ineffective.

                      In response to our survey questionnaire, WCF customers generally
                      indicated that they were satisfied with WCF programs’
                      performance. However, many customers expressed concerns
                      regarding insufficient communication of information and a
                      perceived lack of transparency in WCF operations. Some customers
                      questioned the value of participating in WCF. Appendix 2 contains
                      the results of the survey.

                      We are making five recommendations to improve controls over
                      WCF.

                      In a written response, the Assistant Secretary for Management and
                      Chief Financial Officer agreed with the recommendations and
                      management’s planned corrective actions are responsive to the
                      recommendations. However, management disagreed that there
                      were instances of violations with the Prompt Payment Act for
                      payments made to one WCF vendor. We evaluated the information
                      provided in the response and we still conclude the Prompt Payment
                      Act was violated in these instances. Management’s response is
                      discussed in more detail in the Findings and Recommendations
                      section of this report and the response is included as appendix 3.

Background
                      WCF was established by statute in 1970 to provide centralized
                      administrative services across Treasury to achieve economies of
                      scale while eliminating duplication of effort and redundancies.2 At
                      the time of our audit, WCF had 24 customers —17 Treasury
                      bureaus and offices and 7 non-Treasury agencies.3

                      WCF is a revolving fund with no-year dollars—amounts available
                      for obligation that need not be spent for their intended purpose
                      during a specific fiscal year. WCF is financed by advance payments

2
  Excise, Estate, and Gift Tax Adjustment Act of 1970, Pub. L. No. 91-614 (Dec. 31, 1970), codified at
31 U.S.C. §322.
3
  Of the non-Treasury agencies, four were Treasury entities before they became part of the Department
of Homeland Security.

                      Controls Over Treasury’s Working Capital Fund Expense Process Need        Page 3
                      Improvement (OIG-08-041)
                       or reimbursements from customers rather than appropriations from
                       Congress. Treasury notifies customers of the amount of their
                       annual advance payment through WCF collection letters. The
                       letters inform customers of the estimated funding required for each
                       service provided through WCF and of the charge assessed for WCF
                       administrative overhead. Advance payments are collected via the
                       Intragovernmental Payment and Collection (IPAC) system.4

                       WCF’s fiscal year 2006 budget was $221 million. WCF had the
                       use of 220 full-time equivalents, most of who were assigned to 22
                       WCF programs. During our audit, the WCF Corporate Office
                       consisted of two staff members. For fiscal years 2005 and 2006,
                       Treasury spent approximately $210 million and $204 million,
                       respectively, for WCF. These payments consisted of disbursements
                       for WCF employees’ salaries and expenses, vendor invoices, credit
                       card bills, travel, purchase card transactions, and payments made
                       through IPAC to other federal agencies that provided goods or
                       services to WCF.

                       The WCF Corporate Office provides program oversight, advice, and
                       policy guidance to the service providers and acts as a customer
                       advocate to ensure appropriate fund use and cost distribution. OFM
                       manages all aspects of WCF’s financial operations. In this capacity,
                       OFM tracks funds collected to finance approved financial plans for
                       all WCF customers and generates reports on fund usage against
                       the annual WCF budget.5

                       The program offices are responsible for developing program budget
                       estimates; briefing all customer audiences, program managers, and
                       bureau heads on program direction and anticipated budgets;
                       developing cost distribution methodology; obtaining bureau
                       approval of financial plans; executing budgets and managing funds
                       in accordance with the approved plans; and reporting status of
                       these plans to customers.

                       In fiscal year 2007, a WCF Governance Board was established to
                       provide leadership and direction on Treasury-wide management,

4
  IPAC is an Internet-based collection and payment system. It facilitates the intragovernmental transfer
of funds by providing a standardized interagency fund transfer mechanism for federal agencies.
5
  OFM serves as the central point for coordination of WCF financial management activities such as
budget execution, accounting, and financial system support services.

                       Controls Over Treasury’s Working Capital Fund Expense Process Need          Page 4
                       Improvement (OIG-08-041)
            policies, and procedures that affect the overall quality,
            effectiveness, efficiency, and value of WCF services. At the time
            of our audit, the draft WCF Governance Board Charter stated that
            the WCF Governance Board is chaired by Treasury’s Deputy Chief
            Financial Officer and consists of the members of the Chief Financial
            Officer Council. Treasury has since formalized the WCF
            Governance Board Charter with an effective date of March 20,
            2008, including revisions stating that voting membership is
            comprised of the Treasury Deputy Chief Financial Officer, the Chief
            Financial Officer or Deputy Chief Financial Officer of each Bureau,
            and two Bureau Chief Information Officers.

Finding and Recommendations

Finding     Control Weaknesses Existed in the Payment and
            Recording of WCF Expenses

            We tested controls over the payment and recording of WCF
            expenses by reviewing a sample of transactions. The universe
            tested consisted of 35,942 WCF transactions totaling $414 million
            for fiscal years 2005 and 2006. We selected two separate
            samples, using two different sampling measures, for review.

            First, we extracted all payroll transactions—a total of 25,856
            transactions—from the universe. These transactions had a total
            value of $81 million. From the payroll universe, we selected a non-
            statistical sample of 50 WCF payroll transactions totaling
            $558,000. Our review found no exceptions with these
            transactions.

            Second, we extracted all non-payroll transactions—a total of
            10,086 transactions—from the universe. These transactions had a
            total value of $333 million. From this universe, we selected a
            random sample of 199 expense transactions, which had a total
            value of $1.2 million. In this sample, we found 19 transactions
            with errors—6 where WCF expenses were incorrectly recorded to
            customer accounts, 4 that covered non-WCF expenses, 8 that
            violated the Prompt Payment Act, and 1 where interest was paid
            when it was not owed. In addition, 6 transactions—4 purchase
            card transactions and 2 IPAC transactions—lacked supporting
            documentation.

            Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 5
            Improvement (OIG-08-041)
                       According to criteria on acceptable error rates in tests of controls,6
                       we concluded, based on the results of our testing, that controls
                       related to OFM processing of WCF transactions were ineffective.

                       OFM’s standard operating procedures for processing WCF
                       expenses are not current. Since our review, OFM personnel
                       informed us that they had documented the invoice payment
                       process to help ensure that invoices are reviewed prior to payment.
                       Furthermore, OFM follows the Prompt Payment Act, the Treasury
                       Financial Manual, and internal control guidance to process
                       payments. OFM’s standard operating procedures need to be revised
                       and updated accordingly to address the payment process.

                       The combination of outdated OFM procedures and the failure by
                       WCF program offices to adequately monitor and review expenses
                       charged to WCF increases the risk that expenses will be improperly
                       charged to the fund, resulting in increased costs to WCF and
                       incorrect allocations to WCF customers. Thus, WCF Corporate
                       Office, program offices, and customers cannot be confident that
                       customer accounts are recorded correctly. Additionally, vendors are
                       not assured of being paid in compliance with the law.

                       Costs Were Not Always Correctly Recorded Between Shared and
                       Bureau-Specific

                       OFM did not always correctly record WCF customer expenses in its
                       core financial system. Our review of the sample identified six
                       instances, with an aggregate value of $97,473, where WCF
                       customers’ expenses were incorrectly recorded. In four of these
                       instances, WCF expenses that should have been recorded directly
                       to specific bureaus were recorded as shared costs to be borne by
                       all customers. In the other two instances, expenses that should
                       have been shared by all customers were instead recorded to a
                       specific customer.

                       According to the Working Capital Fund Policies and Procedures
                       Manual, which was in draft at the time of our audit fieldwork, the

6
 American Institute of Certified Public Accountants, Audit Sampling (1999), and Government
Accountability Office and the President’s Council on Integrity and Efficiency’s, Financial Audit Manual,
Section 450, “Sampling Control Tests” (July 2001).

                       Controls Over Treasury’s Working Capital Fund Expense Process Need          Page 6
                       Improvement (OIG-08-041)
                      WCF Corporate Office is responsible for providing program
                      oversight, advice, and policy guidance to service providers and act
                      as a customer advocate to ensure appropriate fund use and cost
                      distribution.7

                      There are two types of WCF program costs—shared and bureau-
                      specific. Shared costs are to be apportioned among all customers
                      that receive a service or product that cannot be directly billed to
                      individual customers. For example, rent and vendor service costs
                      that support shared information technology infrastructure would be
                      shared costs. Bureau-specific costs are for services specifically
                      ordered by a bureau and are billed to the bureau. For example,
                      costs for maintenance at a specific bureau location are bureau-
                      specific costs.

                      According to the Standards for Internal Control in the Federal
                      Government, transactions should be promptly recorded to maintain
                      their relevance and value to management in controlling operations
                      and making decisions. This applies to the entire process or life
                      cycle of a transaction or event from the initiation and authorization
                      through its final classification in summary records. In addition,
                      control activities help to ensure that all transactions are completely
                      and accurately recorded.8

                      We found the following causes for the four instances in which
                      bureau-specific costs were treated as shared costs:

                      •   The OFM accounting technician was unfamiliar with
                          requirements for recording shared and bureau-specific costs and
                          therefore made a recording error.

                      •   A WCF program office erroneously established an obligation as
                          a shared cost rather than as a bureau-specific cost on the
                          obligating document and did not review the information in the
                          core financial system to ensure its accuracy.

                      •   An OFM budget analyst made an error when transferring the
                          apportionment category from the original requisition, which

7
 Draft Working Capital Fund Policies and Procedures Manual (July 19, 2006).
8
 Government Accountability Office, Standards for Internal Control in the Federal Government,
GAO/AIMD-00-21.3.1 (November 1999).

                      Controls Over Treasury’s Working Capital Fund Expense Process Need       Page 7
                      Improvement (OIG-08-041)
                           contained correct information, into the core financial system.9
                           Specifically, the analyst entered the transaction as shared
                           instead of as bureau-specific, and OFM paid the invoice and
                           allocated costs according to the incorrect information in the
                           system.

                       •   An OFM accounting technician made a mistake for an invoice
                           that should have been allocated as bureau-specific rather than
                           as shared.

                       The two instances in which shared costs were erroneously
                       recorded as bureau-specific costs occurred because OFM’s
                       accounting technician was not aware that invoices paid from the
                       WCF could be recorded as either bureau-specific or shared costs.

                       As part of the account reconciliation process, OFM and the
                       program office review the transactions to determine the propriety
                       of costs charged to customers. OFM stated that if adjustments are
                       necessary to data recorded, OFM and the program office handled
                       the adjustments outside of the core financial system. We are
                       concerned with “outside the system” adjustments and the
                       possibility that the trial balance and the official accounting record
                       are inaccurate. We plan to cover this area in the next audit of the
                       WCF.

                       Projecting the results of our sample to the entire population of non-
                       payroll expense transactions, we estimate that 311 WCF expense
                       transactions, totaling approximately $5 million, were improperly
                       recorded during fiscal years 2005 and 2006.10

                       Some WCF Transactions Violated the Prompt Payment Act or OFM
                       Paid Interest That Was Not Owed

                       We found eight instances in our sample in which OFM did not pay
                       required interest penalties to WCF vendors for late payments and
                       one instance in which OFM paid interest to a vendor when it was
                       not required.


9
  The obligation is entered into the core financial system through an interface with PRISM, the
procurement system.
10
   Statistical projections throughout this report were calculated at the 95 percent confidence level.

                       Controls Over Treasury’s Working Capital Fund Expense Process Need           Page 8
                       Improvement (OIG-08-041)
                        The Prompt Payment Act requires federal agencies to make
                        payments on time, to pay interest penalties when payments are
                        late, and to take discounts only when payments are made on or
                        before the discount date. Temporary unavailability of funds to
                        make a timely payment does not relieve an agency from the
                        obligation to pay interest penalties.11

                        Standards for Internal Control in the Federal Government states
                        that transactions and other significant events should be authorized
                        and executed only by persons acting within the scope of their
                        authority. This is the principal means of assuring that only valid
                        transactions to exchange, transfer, use or commit resources and
                        other events are initiated or entered into. Authorizations should be
                        clearly communicated to managers and employees.

                        With respect to the eight instances where OFM did not pay WCF
                        vendors on time, an OFM accounting technician did not use the
                        actual invoice stamp dates, which indicate the date on which an
                        invoice is received, and entered later dates into the core financial
                        system for some WCF transactions that we reviewed, thereby
                        changing the due date for payment of the invoices. We did not find
                        documentation that a supervisor had approved the changes to due
                        dates or justifications for doing so. We received the following
                        additional explanations for the altered stamped invoice received
                        dates:

                        •    In three cases, OFM staff stated that they entered later invoice
                             dates in the core financial system so that the system would not
                             calculate an interest penalty that may have been due to one
                             WCF vendor. OFM staff thought that they should not pay this
                             interest because there were credits owed by this vendor to
                             Treasury for excess billings. The OFM Chief of Vendor
                             Resources stated that there was an agreement between OFM
                             and the vendor specifying that OFM did not have to pay interest
                             for late payments. We spoke with the vendor and the program
                             office for which the services were provided and were informed
                             that they were not aware of an agreement to waive interest
                             penalties for late payments.



11
     31 U.S.C. Chapter 39.

                        Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 9
                        Improvement (OIG-08-041)
                        •     In two cases, OFM did not pay the invoice on time because
                              there was inadequate funding to pay the vendor and OFM
                              would not process the payment. The invoice was placed in “on-
                              hold-for-payment” status until funding became available. When
                              funding became available, OFM paid the invoice but did not pay
                              interest if the payment was late. This is contrary to law, which
                              provides that the temporary unavailability of funds to make a
                              timely payment due for property or services does not relieve an
                              agency from the obligation to pay interest penalties under this
                              section.12

                        •     In one case, the OFM accounting technician altered the invoice
                              date when it was entered into the system because he thought
                              funding was inadequate to make payment at the time. We
                              found that there was adequate funding available.

                        •     In two cases, OFM offered no specific explanation for the
                              accounting technician entering a later invoice date into the
                              system but admitted to the mistake of not paying interest
                              penalties.

                        In the case where OFM paid interest when it was not required to
                        do so, OFM’s Chief of Vendor Resources and an OFM accounting
                        technician stated that the invoice was incorrectly entered in the
                        core financial system. When we brought the unnecessary interest
                        payment to OFM’s attention, an accounting technician
                        acknowledged that OFM had made a mistake. OFM then informed
                        the vendor that it would reduce a current invoice by the same
                        amount of the interest incorrectly paid.

                        By changing the stamped invoice received date, OFM exposes
                        Treasury to the interest penalties that can be imposed for Prompt
                        Payment Act noncompliance. In addition, late payments to vendors
                        result in increased and unnecessary costs to WCF and its
                        customers. Also, vendors are entitled to fair and equitable
                        treatment when conducting business transactions with the
                        Department.




12
     31 U.S.C Sec. 3902(d).

                        Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 10
                        Improvement (OIG-08-041)
                         Projecting the results of our sample to the universe of non-payroll
                         expense transactions, we estimate that 469 transactions, totaling
                         approximately $20 million, either violated the Prompt Payment Act
                         (interest not paid to the vendor when interest should have been
                         paid) or the vendor was paid interest not owed during fiscal years
                         2005 and 2006.

                         Supporting Documentation for WCF Expenses Was Not Always
                         Available

                         We were unable to verify the validity of WCF expenses totaling
                         $67,000 for four purchase card and two IPAC transactions.

                         According to Standards for Internal Control in the Federal
                         Government, all transactions, and other significant events need to
                         be clearly documented, and the documentation should be readily
                         available for examination. All documentation and records should be
                         properly managed and maintained. For example, receipts for
                         purchase card transactions are essential for verifying that purchase
                         card transactions charged to WCF are appropriate. Cardholders are
                         required to keep a purchase log to help them reconcile the monthly
                         e-statement.13 The cardholder reconciles the e-statement from the
                         CitiDirect system with the purchase log and supporting receipts
                         obtained from the vendor. Then, the cardholder submits the e-
                         statement to the approving official.

                         We attempted to obtain supporting documents, such as receipts,
                         for four purchase card transactions and were unable to do so
                         because the program office had (1) destroyed the documentation
                         for one transaction; (2) misplaced the documentation for two
                         transactions; and (3) not kept the purchase card file of a retired
                         cardholder.

                         Neither OFM nor the responsible program office was able to
                         provide us with documentation necessary to support one IPAC
                         transaction. For another IPAC transaction, the receipt supported an
                         amount less than the expense recorded in the core financial
                         system. OFM staff claimed that the difference was attributable to a
                         refund to WCF but were unable to provide support documentation.


13
     An e-statement is the equivalent of a monthly purchase card statement within the CitiDirect system.

                         Controls Over Treasury’s Working Capital Fund Expense Process Need       Page 11
                         Improvement (OIG-08-041)
Without supporting documentation, WCF management cannot be
certain that transactions were for legitimate WCF expenses.

Projecting the results of our sample to the universe of non-payroll
expense transactions, we estimate that approximately 311
transactions, totaling $3.5 million, lacked supporting
documentation during fiscal years 2005 and 2006.

Certain Expenses Were Inappropriately Charged to WCF

We identified four instances totaling $486 in which WCF was
charged for expenses that it did not incur. These charges included
non-WCF interest expenses, international telephone expenses, and
an improper charge for travel. These expenses should have been
charged to Treasury’s Salaries and Expenses cost center.

With respect to the transactions in which non-WCF interest
expenses charged to WCF, OFM personnel stated that limitations in
the OFM core financial system necessitated using the WCF cost
center to record all interest paid for delinquent invoices and the
subsequent periodic manual re-allocation of the recorded interest
expenses to the appropriate funds because WCF’s expenses
comprise the greatest volume of payments. These non-WCF
interest expenses had remained in the WCF account for more than
2 years. During our audit, OFM personnel stated that interest
expenses would now be reviewed quarterly to ensure that they are
recorded to the proper funds and cost centers.

Regarding the transactions in which WCF was charged for
international telephone expenses and unrelated travel, the WCF
Corporate Manager and OFM personnel agreed that these expenses
were erroneously charged to WCF. We also noted with the travel
expense that the related travel authorization and voucher were
approved by the traveler’s subordinate, not a supervisor. OFM
personnel told us that Departmental Office took steps to ensure the
approval of travel by an official senior to the traveler.

Projecting the results of our sample to the entire population of non-
payroll expense transactions, we estimate that 207 expenses
totaling $25,000 were inappropriately charged to WCF during fiscal


Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 12
Improvement (OIG-08-041)
years 2005 and 2006. While the projected expenses related to the
transaction errors are not material, the nature of the internal control
deficiencies related to travel and the errors related to processing
expenses warrant management’s attention.

Recommendations

We recommend that the Assistant Secretary for Management and
Chief Financial Officer (ASM/CFO) direct:

1. OFM to update its standard operating procedures for processing
   WCF transactions and ensure staff are trained in those
   procedures. The procedures and training should address the
   proper entering of transactions in the core financial system and
   the need to reject invoices that are not supported, approved, or
   correctly coded.

    Management Response

    OFM will provide training to its staff and program office staff to
    ensure proper coding and entry of WCF transactions. OFM
    began this effort prior to the audit and, beginning in fiscal year
    2008, OFM implemented a policy that does not permit manual
    adjustments to be made outside of the core accounting system.
    In addition, OFM inspects all invoice certifications it receives
    from WCF program offices to ensure they are accurate and
    payments are completed timely. These polices will be reflected
    in updated OFM Standard Operating Procedures. The
    implementation date to complete planned corrective actions is
    September 30, 2008.

    OIG Comment

    Management’s corrective action is responsive to the intent of
    our recommendation.

2. OFM to implement procedures to ensure that interest penalties
   are paid to vendors, when appropriate, under the Prompt
   Payment Act.




Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 13
Improvement (OIG-08-041)
    Management Response

    OFM will review and update its Standard Operating Procedures
    and ensure that Prompt Payment Act requirements are
    incorporated. OFM will train its accounting technicians on the
    requirements of the Prompt Payment Act as part of the training
    identified in OIG corrective action for Recommendation 1. The
    implementation date to complete planned corrective actions is
    March 31, 2009.

    Management disagreed that there was a violation in instances
    that OIG identified. Management responded that rather, OFM
    cannot provide documentation to support its actions. In the
    cases OIG identified, the contract was very complex, there were
    large credits due to Treasury, and OFM entered into a verbal
    agreement with the vendor to hold payment. The agreement
    minimized confusion since the vendor was not required to
    continually re-invoice Treasury and it reduced the risk of
    multiple invoices and possible duplicate payments.

    OIG Comment

    We believe that the Prompt Payment Act was violated. Our
    audit disclosed eight invoices with errors related to interest
    payment penalties. The payments to the vendor of the
    “complex contract” nature discussed in the written response
    represent three of these invoices. Throughout the audit, OFM
    provided different reasons for changing the invoice receipt date
    to a later date in the core accounting system to avoid interest
    penalties for late payments to this vendor. While the written
    response states that OFM entered into a verbal agreement with
    the vendor “to hold” payments, this explanation is different
    from the explanation provided during the audit when an OFM
    official stated that the agreement allowed for OFM “to not pay
    interest penalties”. We contacted the vendor and the program
    office during our audit to confirm the verbal agreement to
    “waive” interest penalties for late payments and neither was
    aware of the agreement. In any event, we are concerned with
    OFM entering into any agreements with the vendor as only the
    contracting officer has this authority. Also of concern is the
    control weakness that permits accounting technicians to change


Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 14
Improvement (OIG-08-041)
    the invoice receipt dates in the core accounting system without
    proper approval and documentation.

    The planned corrective actions are generally responsive to the
    recommendation. However, management needs to ensure that
    they are effectively implemented so that vendors are paid
    interest penalties when required under the Prompt Payment Act.
    In this regard, we believe OFM officials need to revisit the
    payment practices for the cited complex contract cited in the
    response to ensure the practices are in accordance with the
    Act.

3. WCF program offices to maintain proper documentation for
   purchase card and IPAC transactions.

    Management Response

    Management will instruct Departmental Offices employees to
    abide by the Treasury Departmental Offices, U.S. Government
    Purchase Card Policy and Procedure manual. As an added
    measure, the Procurement Office will continue to conduct
    regular purchase cardholder audits. Management also stated
    that the Bureau of Public Debt’s Administrative Resource
    Center, which provides accounting services to the WCF, will be
    reminded to maintain proper records of the IPAC transactions
    they perform. The implementation date to complete planned
    corrective actions is September 30, 2008.

    OIG Comment

    Management’s corrective action is responsive to the intent of
    our recommendation.

We further recommend that the ASM/CFO and the WCF Corporate
Manager:

4. Direct WCF program offices to timely coordinate with OFM
   when inconsistencies and errors are identified during account
   reconciliations of data entered by OFM in the core financial
   system. Corrections of errors identified through account
   reconciliations should be made to the core financial system.


Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 15
Improvement (OIG-08-041)
                 Management Response

                 As part of the corrective action for Recommendation 1,
                 beginning in Fiscal Year 2008, OFM implemented a policy that
                 does not allow manual adjustments to be made outside of the
                 core accounting system. WCF program offices will be instructed
                 to comply with this policy and asked to notify OFM when
                 corrections to the accounting system are necessary. The
                 implementation date to complete planned corrective actions is
                 September 30, 2008.

                 OIG Comment

                 Management’s corrective action is responsive to the intent of
                 our recommendation.

             5. Issue a reminder to OFM and the program offices to ensure that
                only WCF expenses are charged to the WCF accounts.

                 Management Response

                 As part of the corrective action to address Recommendation 4,
                 management will emphasize the importance of properly using
                 WCF accounting codes and reviewing and reconciling charges,
                 particularly those entered by travelers, to ensure expenses are
                 recorded accurately. The implementation date to complete
                 planned corrective actions is September 30, 2008.

                 OIG Comment

                 Management’s corrective action is responsive to the intent of
                 our recommendation.

Results of WCF Customer Survey
             We asked the 24 WCF customers to respond to questions
             pertaining to their satisfaction with the WCF. We received
             responses from 20 customers, for an overall response rate of 83
             percent. Generally, WCF customers were satisfied with WCF
             programs’ performance. However, many customers expressed

             Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 16
             Improvement (OIG-08-041)
concerns regarding insufficient communication of information and a
perceived lack of transparency of the WCF operations. Some
customers questioned the value of participating in WCF. We did
not conduct follow-up interviews with customers nor did we verify
the validity of customers’ comments. However, we will consider
the survey results in planning our subsequent audit work of the
WCF. Appendix 2 provides the survey results.

                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Kieu Rubb, Director of
Procurement and Manufacturing Audits, at (202) 927-5904. Major
contributors to this report are listed in appendix 4.




Marla A. Freedman
Assistant Inspector General for Audit




Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 17
Improvement (OIG-08-041)
Appendix 1
Objectives, Scope, and Methodology




We performed an audit of the Department of the Treasury’s
Working Capital Fund (WCF). The audit’s overall objective was to
determine whether adequate controls over WCF were established.
We initially planned to determine, as sub-objectives of the audit
whether: (1) WCF activities and programs are appropriate for
inclusion in the fund; (2) reconciliations between actual costs
incurred by WCF and costs billed to participating Treasury bureaus
exist, are timely prepared, and consistent; (3) costs charged by
WCF are appropriate; (4) costs charged by WCF to specific bureaus
are supported by appropriate documentation; and (5) assumptions,
data, processes, and models used by WCF to estimate its annual
costs are reasonable.

We performed our audit fieldwork at the Office of Financial
Management (OFM) from November 2006 to April 2008. Because
of other unforeseen priorities, we decided to issue this report
focusing on whether costs charged by WCF were appropriate and
whether costs charged by WCF to specific bureaus were supported
by appropriate documentation, objectives 3 and 4. We plan to
address the remaining objectives in a subsequent audit at a later
time.

As part of the fieldwork, we reviewed the WCF law, regulations,
and Treasury guidelines. We interviewed managers and staff from
the WCF Corporate Office, OFM, and select Treasury program
offices. We also interviewed a WCF contractor.

In addition, we e-mailed survey questionnaires to the 24 WCF
customers. We received responses from 20 customers, for an
overall response rate of 83 percent. We asked the customers to
respond to questions pertaining to their satisfaction with WCF. We
tabulated and analyzed the results of the survey questionnaires.
We did not conduct follow-up interviews with customers nor did
we verify the validity of customers’ comments.

Our universe consisted of 35,942 WCF transactions, totaling $414
million, for fiscal years 2005 and 2006. We selected transactions
using two different methods. First, we extracted all payroll
transactions—a total of 25,856 transactions—from the universe.
These transactions had a total value of $81 million. From the
payroll universe, we selected a non-statistical sample of 50 WCF


Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 18
Improvement (OIG-08-041)
                       Appendix 1
                       Objectives, Scope, and Methodology




                       payroll transactions totaling $558,000. Our review found no
                       exceptions with these transactions. Second, we extracted all non-
                       payroll transactions from the universe, which resulted in a
                       nonpayroll universe of 10,086 transactions, with a total value of
                       $333 million. From this universe, we selected a random sample of
                       199 transactions, totaling $1.2 million. We projected the results
                       derived from the random sample on non-payroll transactions to the
                       total population of non-payroll expense transactions for fiscal years
                       2005 and 2006.

                       We used the American Institute of Certified Public Accountants and
                       the Government Accountability Office and President’s Council on
                       Integrity and Efficiency’s Financial Audit Manual (FAM) as criteria
                       for the acceptable number of deviations in sampling control tests to
                       conclude on the results of the statistical sampling test.14

                       As part of our evaluation of controls over WCF transactions, we
                       reviewed computer-processed data from OFM’s year-end detailed
                       trial balances. To assess the reliability of the data, we compared
                       the data against source input documents, including original
                       invoices, bills, purchase and delivery orders, contracts, and
                       receiving documentation.

                       We performed the audit in accordance with generally accepted
                       government auditing standards.




14
  According to the American Institute of Certified Public Accountants, Audit Sampling (1999), with 95
percent confidence level, 5 percent tolerable rate, the maximum acceptable error rate is about 2.2
percent when the sample size is 199. Since the error rate for the total audit is 13 percent, it exceeds
the acceptable error rate, and therefore the controls are ineffective. The FAM provides for internal
control tests and states that using a 90 percent confidence level, 5 percent tolerable rate, the maximum
acceptable number of deviations is 6 when the sample size is 209. Financial Audit Manual, section 450,
“Sampling Control Tests” (July 2001).

                       Controls Over Treasury’s Working Capital Fund Expense Process Need       Page 19
                       Improvement (OIG-08-041)
Appendix 2
Survey Questions and Results




We e-mailed a survey questionnaire to the 24 WCF customers
representing Treasury bureau Chief Financial Officers and non-
Treasury customer officials. Of these, we received responses from
20 customers, for an overall response rate of 83 percent. (See
page 43 for a list of WCF customers.) We used a combination of
open-ended (text box) and closed-ended (radio button) questions by
asking the customers to provide responses regarding their
satisfaction with the WCF and comments on areas for
improvement. We tabulated the results of the survey as follows.


 1. How long has your bureau or agency been a customer of
 the WCF?

              Less
              than 1                  4 - 10       More than 10
              year       1-3 years    years        years
 Percentage     0%           15%        30%              55%



 2. Why did your bureau or agency become a WCF
 customer?
                        Bureau or
           Bureau or    agency
           agency       was
           asked to     directed to
           become a     become a        Cost-
           customer     customer       effective         Other
 Percent
 age          9.5%           52%           9.5%          29%



 3. Was your bureau or agency provided adequate
 information for decision-making before participating in the
 WCF program?


                       Yes                          No
 Percentage            67%                         33%




Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 20
Improvement (OIG-08-041)
                         Appendix 2
                         Survey Questions and Results




4. Please check the appropriate box that best describes your bureau’s or agency’s satisfaction with the
performance of the WCF programs and services listed below. If your bureau or agency does not
participate in or use a listed program or service, check the box in the “N/A” column.
Program                                                         Survey Results         Total   Percentage
                                                                Extremely Satisfied     2         12%
                                                                Very Satisfied          4         24%
                                                                Moderately Satisfied    6         35%
Security Programs
                                                                Dissatisfied            2         12%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     3         18%
                                                                Extremely Satisfied     1         6%
                                                                Very Satisfied          6         35%
                                                                Moderately Satisfied    4         24%
Human Resources Strategy and Solutions
                                                                Dissatisfied            2         12%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     4         24%
                                                                Extremely Satisfied     2         11%
                                                                Very Satisfied          3         17%
                                                                Moderately Satisfied    3         17%
Equal Opportunity and Diversity
                                                                Dissatisfied            1         6%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     9         50%
                                                                Extremely Satisfied     1         6%
                                                                Very Satisfied          5         28%
                                                                Moderately Satisfied    3         17%
ACIO HR Connect Operations & Maintenance
                                                                Dissatisfied            3         17%
                                                                Very Dissatisfied       1         6%
                                                                N/A                     5         28%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          8         44%
                                                                Moderately Satisfied    3         17%
ACIO NFC Payroll/Employee Express
                                                                Dissatisfied            1         6%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     6         33%




                         Controls Over Treasury’s Working Capital Fund Expense Process Need               Page 21
                         Improvement (OIG-08-041)
                       Appendix 2
                       Survey Questions and Results



4. Please check the appropriate box that best describes your bureau’s or agency’s satisfaction with the
performance of the WCF programs and services listed below. If your bureau or agency does not
participate in or use a listed program or service, check the box in the “N/A” column.
Program                                                         Survey Results         Total   Percentage
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          5         29%
                                                                Moderately Satisfied    3         18%
ACIO HR Connect Equipment Reserve
                                                                Dissatisfied            2         12%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     7         41%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          4         24%
                                                                Moderately Satisfied    5         29%
ACIO HR Connect E-Government
                                                                Dissatisfied            2         12%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     6         35%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          4         22%
                                                                Moderately Satisfied    8         44%
CIO Front Office/IT Program Management
                                                                Dissatisfied            1         6%
                                                                Very Dissatisfied       1         6%
                                                                N/A                     4         22%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          3         18%
                                                                Moderately Satisfied    6         35%
CIO Resource Management
                                                                Dissatisfied            3         18%
                                                                Very Dissatisfied       1         6%
                                                                N/A                     4         24%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          7         41%
                                                                Moderately Satisfied    4         24%
ACIO Telecommunications- Front Office
                                                                Dissatisfied            0         0%
                                                                Very Dissatisfied       1         6%
                                                                N/A                     5         29%




                       Controls Over Treasury’s Working Capital Fund Expense Process Need                 Page 22
                       Improvement (OIG-08-041)
                          Appendix 2
                          Survey Questions and Results



4. Please check the appropriate box that best describes your bureau’s or agency’s satisfaction with the
performance of the WCF programs and services listed below. If your bureau or agency does not
participate in or use a listed program or service, check the box in the “N/A” column.
Program                                                          Survey Results         Total   Percentage
                                                                 Extremely Satisfied     2         12%
                                                                 Very Satisfied          4         24%
                                                                 Moderately Satisfied    4         24%
ACIO Telecommunications- DTS
                                                                 Dissatisfied            0         0%
                                                                 Very Dissatisfied       0         0%
                                                                 N/A                     7         41%
                                                                 Extremely Satisfied     1         6%
                                                                 Very Satisfied          5         28%
                                                                 Moderately Satisfied    6         33%
ACIO Telecommunications-TCS
                                                                 Dissatisfied            1         6%
                                                                 Very Dissatisfied       1         6%
                                                                 N/A                     4         22%
                                                                 Extremely Satisfied     0         0%
                                                                 Very Satisfied          3         17%
                                                                 Moderately Satisfied    5         28%
ACIO Telecommunications- TCE Network Transition
                                                                 Dissatisfied            1         6%
                                                                 Very Dissatisfied       1         6%
                                                                 N/A                     8         44%
                                                                 Extremely Satisfied     1         6%
                                                                 Very Satisfied          3         18%
                                                                 Moderately Satisfied    1         6%
ACIO Telecommunications- Wireless Program
                                                                 Dissatisfied            1         6%
                                                                 Very Dissatisfied       1         6%
                                                                 N/A                     10        59%
                                                                 Extremely Satisfied     0         0%
                                                                 Very Satisfied          6         35%
                                                                 Moderately Satisfied    5         29%
ACIO Cyber Security-Critical Infrastructure Protection
                                                                 Dissatisfied            1         6%
                                                                 Very Dissatisfied       0         0%
                                                                 N/A                     5         29%




                          Controls Over Treasury’s Working Capital Fund Expense Process Need              Page 23
                          Improvement (OIG-08-041)
                        Appendix 2
                        Survey Questions and Results



4. Please check the appropriate box that best describes your bureau’s or agency’s satisfaction with the
performance of the WCF programs and services listed below. If your bureau or agency does not
participate in or use a listed program or service, check the box in the “N/A” column.
Program                                                         Survey Results         Total   Percentage
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          7         41%
                                                                Moderately Satisfied    3         18%
ACIO Cyber Security-Information Security
                                                                Dissatisfied            2         12%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     5         29%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          3         18%
                                                                Moderately Satisfied    5         29%
ACIO E-Government- Management
                                                                Dissatisfied            2         12%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     7         41%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          1         6%
                                                                Moderately Satisfied    4         24%
ACIO E-Government- Payments
                                                                Dissatisfied            2         12%
                                                                Very Dissatisfied       1         6%
                                                                N/A                     9         53%
                                                                Extremely Satisfied     1         6%
                                                                Very Satisfied          3         17%
                                                                Moderately Satisfied    4         22%
ACIO E-Government- Enterprise Architecture
                                                                Dissatisfied            3         17%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     7         39%
                                                                Extremely Satisfied     1         6%
                                                                Very Satisfied          3         17%
                                                                Moderately Satisfied    4         22%
ACIO E-Government- Enterprise Solutions
                                                                Dissatisfied            3         17%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     7         39%




                        Controls Over Treasury’s Working Capital Fund Expense Process Need                Page 24
                        Improvement (OIG-08-041)
                       Appendix 2
                       Survey Questions and Results



4. Please check the appropriate box that best describes your bureau’s or agency’s satisfaction with the
performance of the WCF programs and services listed below. If your bureau or agency does not
participate in or use a listed program or service, check the box in the “N/A” column.
Program                                                         Survey Results         Total   Percentage
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          3         17%
                                                                Moderately Satisfied    4         22%
ACIO E-Government- Planning
                                                                Dissatisfied            2         11%
                                                                Very Dissatisfied       1         6%
                                                                N/A                     8         44%
                                                                Extremely Satisfied     1         6%
                                                                Very Satisfied          3         17%
                                                                Moderately Satisfied    4         22%
ACIO Capital Planning Inf. Management-Cap. Planning
                                                                Dissatisfied            1         6%
                                                                Very Dissatisfied       2         11%
                                                                N/A                     7         39%
                                                                Extremely Satisfied     1         6%
                                                                Very Satisfied          3         17%
                                                                Moderately Satisfied    4         22%
ACIO Capital Planning Inf. Management-Info. Mgmt
                                                                Dissatisfied            0         0%
                                                                Very Dissatisfied       2         11%
                                                                N/A                     8         44%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          3         17%
                                                                Moderately Satisfied    5         28%
ACIO Telecommunications- Secure Comm. Center
                                                                Dissatisfied            0         0%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     10        56%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          2         11%
                                                                Moderately Satisfied    6         33%
ACIO Telecommunications- Secure Equip Res
                                                                Dissatisfied            0         0%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     10        56%




                       Controls Over Treasury’s Working Capital Fund Expense Process Need                 Page 25
                       Improvement (OIG-08-041)
                        Appendix 2
                        Survey Questions and Results



4. Please check the appropriate box that best describes your bureau’s or agency’s satisfaction with the
performance of the WCF programs and services listed below. If your bureau or agency does not
participate in or use a listed program or service, check the box in the “N/A” column.
Program                                                         Survey Results         Total   Percentage
                                                                Extremely Satisfied     1         6%
                                                                Very Satisfied          0         0%
                                                                Moderately Satisfied    2         11%
ACIO Telecommunications VAX Computer
                                                                Dissatisfied            0         0%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     15        83%
                                                                Extremely Satisfied     1         5%
                                                                Very Satisfied          8         42%
                                                                Moderately Satisfied    6         32%
Emergency Preparedness
                                                                Dissatisfied            0         0%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     4         21%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          4         22%
                                                                Moderately Satisfied    5         28%
Small & Disadvantaged Business Utilization
                                                                Dissatisfied            1         6%
                                                                Very Dissatisfied       1         6%
                                                                N/A                     7         39%
                                                                Extremely Satisfied     1         5%
                                                                Very Satisfied          3         16%
                                                                Moderately Satisfied    6         32%
Procurement Program
                                                                Dissatisfied            2         11%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     7         37%
                                                                Extremely Satisfied     1         5%
                                                                Very Satisfied          1         5%
                                                                Moderately Satisfied    7         37%
E-Government (IAE)
                                                                Dissatisfied            1         5%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     9         47%




                        Controls Over Treasury’s Working Capital Fund Expense Process Need                Page 26
                        Improvement (OIG-08-041)
                         Appendix 2
                         Survey Questions and Results



4. Please check the appropriate box that best describes your bureau’s or agency’s satisfaction with the
performance of the WCF programs and services listed below. If your bureau or agency does not
participate in or use a listed program or service, check the box in the “N/A” column.
Program                                                         Survey Results         Total   Percentage
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          3         18%
                                                                Moderately Satisfied    4         24%
Non-CIO Government-wide Council Payments
                                                                Dissatisfied            3         18%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     7         41%
                                                                Extremely Satisfied     1         5%
                                                                Very Satisfied          4         21%
                                                                Moderately Satisfied    6         32%
Financial Systems Integration
                                                                Dissatisfied            3         16%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     5         26%
                                                                Extremely Satisfied     0         0%
                                                                Very Satisfied          3         17%
                                                                Moderately Satisfied    4         22%
Environment, Safety, and Health
                                                                Dissatisfied            3         17%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     8         44%
                                                                Extremely Satisfied     1         5%
                                                                Very Satisfied          4         21%
                                                                Moderately Satisfied    1         5%
Printing Procurement Services
                                                                Dissatisfied            5         26%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     8         42%
                                                                Extremely Satisfied     1         5%
                                                                Very Satisfied          4         21%
                                                                Moderately Satisfied    2         11%
Printing Reproduction Services
                                                                Dissatisfied            4         21%
                                                                Very Dissatisfied       0         0%
                                                                N/A                     8         42%




                         Controls Over Treasury’s Working Capital Fund Expense Process Need               Page 27
                         Improvement (OIG-08-041)
                        Appendix 2
                        Survey Questions and Results



4. Please check the appropriate box that best describes your bureau’s or agency’s satisfaction with the
performance of the WCF programs and services listed below. If your bureau or agency does not
participate in or use a listed program or service, check the box in the “N/A” column.
Program                                                           Survey Results           Total   Percentage
                                                                  Extremely Satisfied          1       5%
                                                                  Very Satisfied               4      21%
                                                                  Moderately Satisfied         2      11%
Graphics Services
                                                                  Dissatisfied                 4      21%
                                                                  Very Dissatisfied            0       0%
                                                                  N/A                          8      42%
                                                                  Extremely Satisfied          0       0%
                                                                  Very Satisfied               3      16%
                                                                  Moderately Satisfied         3      16%
Communications, Information, & Locator Center
                                                                  Dissatisfied                 0       0%
                                                                  Very Dissatisfied            1       5%
                                                                  N/A                         12      63%
                                                                  Extremely Satisfied          2      11%
                                                                  Very Satisfied               5      26%
                                                                  Moderately Satisfied        10      53%
WCF Support Services
                                                                  Dissatisfied                 1       5%
                                                                  Very Dissatisfied            0       0%
                                                                  N/A                          1       5%

5. Please check yes or no if you feel that your bureau or agency could obtain the services it currently
receives from the WCF at a lower cost from another source or sources. If yes, please indicate from
which source. If it is from another source, please specify in the available space. If your bureau or
agency does not participate in or use a listed program or service, please check the box in the "N/A"
column.
Program                                                            Survey Results        Total     Percentage
                                                                   Yes                    5           26%
                                                                   No                     10          53%
                                                                   N/A                    4           21%
Security Programs
                                                                   In House               3           60%
                                                                   Contract
                                                                   Vendors                1           20%
                                                                   Other                  1           20%




                        Controls Over Treasury’s Working Capital Fund Expense Process Need                      Page 28
                        Improvement (OIG-08-041)
                         Appendix 2
                         Survey Questions and Results



5. Please check yes or no if you feel that your bureau or agency could obtain the services it currently
receives from the WCF at a lower cost from another source or sources. If yes, please indicate from
which source. If it is from another source, please specify in the available space. If your bureau or
agency does not participate in or use a listed program or service, please check the box in the "N/A"
column.
Program                                                            Survey Results    Total    Percentage
                                                                   Yes                 3         16%
                                                                   No                  10        53%
                                                                   N/A                 6         32%
Human Resources Strategy and Solutions
                                                                   In House            1         33%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Other               1         33%
                                                                   Yes                 1          5%
                                                                   No                  9         47%
                                                                   N/A                 9         47%
Equal Opportunity and Diversity
                                                                   In House            0          0%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Other               1         100%
                                                                   Yes                 4         22%
                                                                   No                  10        56%
                                                                   N/A                 4         22%
ACIO HR Connect Operations & Maintenance
                                                                   In House            1         25%
                                                                   Contract
                                                                   Vendors             2         50%
                                                                   Other               1         25%
                                                                   Yes                 2         11%
                                                                   No                  11        58%
                                                                   N/A                 6         32%
ACIO NFC Payroll/Employee Express
                                                                   In House            0          0%
                                                                   Contract
                                                                   Vendors             1         50%
                                                                   Other               1         50%
                                                                   Yes                 3         17%
                                                                   No                  9         50%
                                                                   N/A                 6         33%
ACIO HR Connect Equipment Reserve
                                                                   In House            0          0%
                                                                   Contract
                                                                   Vendors             2         67%
                                                                   Other               1         33%




                         Controls Over Treasury’s Working Capital Fund Expense Process Need                Page 29
                         Improvement (OIG-08-041)
                        Appendix 2
                        Survey Questions and Results



5. Please check yes or no if you feel that your bureau or agency could obtain the services it currently
receives from the WCF at a lower cost from another source or sources. If yes, please indicate from
which source. If it is from another source, please specify in the available space. If your bureau or
agency does not participate in or use a listed program or service, please check the box in the "N/A"
column.
Program                                                            Survey Results    Total    Percentage
                                                                   Yes                 4         22%
                                                                   No                  8         44%
                                                                   N/A                 6         33%
ACIO HR Connect E-Government
                                                                   In House            2         50%
                                                                   Contract
                                                                   Vendors             1         25%
                                                                   Other               1         25%
                                                                   Yes                 6         32%
                                                                   No                  8         42%
                                                                   N/A                 5         26%

CIO Front Office/IT Program Management                             In House            4         67%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Contract)     1         17%
                                                                   Other               1         17%
                                                                   Yes                 5         26%
                                                                   No                  8         42%
                                                                   N/A                 6         32%

CIO Resource Management                                            In House            3         60%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Contract)     1         20%
                                                                   Other               1         20%
                                                                   Yes                 6         32%
                                                                   No                  8         42%
                                                                   N/A                 5         26%

ACIO Telecommunications- Front Office                              In House            3         50%
                                                                   Contract
                                                                   Vendors             1         17%
                                                                   Both (In-
                                                                   House/Contract)     1         17%
                                                                   Other               1         17%




                        Controls Over Treasury’s Working Capital Fund Expense Process Need                 Page 30
                        Improvement (OIG-08-041)
                        Appendix 2
                        Survey Questions and Results



5. Please check yes or no if you feel that your bureau or agency could obtain the services it currently
receives from the WCF at a lower cost from another source or sources. If yes, please indicate from
which source. If it is from another source, please specify in the available space. If your bureau or
agency does not participate in or use a listed program or service, please check the box in the "N/A"
column.
Program                                                            Survey Results    Total    Percentage
                                                                   Yes                 7         37%
                                                                   No                  5         26%
                                                                   N/A                 7         37%

ACIO Telecommunications- DTS                                       In House            2         29%
                                                                   Contract
                                                                   Vendors             3         43%
                                                                   Both (In-
                                                                   House/Contract)     1         14%
                                                                   Other               1         14%
                                                                   Yes                 8         42%
                                                                   No                  8         42%
                                                                   N/A                 3         16%
                                                                   In House            2         25%
ACIO Telecommunications-TCS                                        Contract
                                                                   Vendors             2         25%
                                                                   Both (In-
                                                                   House/Contract)     1         13%
                                                                   No source
                                                                   provided            1         25%
                                                                   Other               1         13%
                                                                   Yes                 4         21%
                                                                   No                  7         37%
                                                                   N/A                 8         42%

ACIO Telecommunications- TCE Network Transition                    In House            2         50%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Contract)     1         25%
                                                                   Other               1         25%
                                                                   Yes                 5         26%
                                                                   No                  6         32%
                                                                   N/A                 8         42%

ACIO Telecommunications- Wireless Program                          In House            1         20%
                                                                   Contract
                                                                   Vendors             1         20%
                                                                   Both (In-
                                                                   House/Contract)     1         20%
                                                                   Other               1         20%



                        Controls Over Treasury’s Working Capital Fund Expense Process Need                 Page 31
                        Improvement (OIG-08-041)
                          Appendix 2
                          Survey Questions and Results



5. Please check yes or no if you feel that your bureau or agency could obtain the services it currently
receives from the WCF at a lower cost from another source or sources. If yes, please indicate from
which source. If it is from another source, please specify in the available space. If your bureau or
agency does not participate in or use a listed program or service, please check the box in the "N/A"
column.
Program                                                            Survey Results    Total     Percentage
                                                                   Yes                 6          32%
                                                                   No                  9          47%
                                                                   N/A                 4          21%
ACIO Cyber Security-Critical Infrastructure Protection
                                                                   In House            4          67%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Other               2          33%
                                                                   Yes                 6          32%
                                                                   No                  9          47%
                                                                   N/A                 4          21%

ACIO Cyber Security-Information Security                           In House            4          67%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Other)        1          17%
                                                                   Other               1          17%
                                                                   Yes                 4          21%
                                                                   No                  8          42%
                                                                   N/A                 7          37%

ACIO E-Government- Management                                      In House            2          50%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Other)        1          25%
                                                                   Other               1          25%
                                                                   Yes                 4          21%
                                                                   No                  6          32%
                                                                   N/A                 9          47%

ACIO E-Government- Payments                                        In House            3          75%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Other)        0          0%
                                                                   Other               1          25%




                          Controls Over Treasury’s Working Capital Fund Expense Process Need                Page 32
                          Improvement (OIG-08-041)
                        Appendix 2
                        Survey Questions and Results



5. Please check yes or no if you feel that your bureau or agency could obtain the services it currently
receives from the WCF at a lower cost from another source or sources. If yes, please indicate from
which source. If it is from another source, please specify in the available space. If your bureau or
agency does not participate in or use a listed program or service, please check the box in the "N/A"
column.
Program                                                            Survey Results    Total    Percentage
                                                                   Yes                 5         26%
                                                                   No                  7         37%
                                                                   N/A                 7         37%

ACIO E-Government- Enterprise Architecture                         In House            3         60%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Other)        1         20%
                                                                   Other               1         20%
                                                                   Yes                 6         32%
                                                                   No                  8         42%
                                                                   N/A                 5         26%

ACIO E-Government- Enterprise Solutions                            In House            3         50%
                                                                   Contract
                                                                   Vendors             1         17%
                                                                   Both (In-
                                                                   House/Other)        1         17%
                                                                   Other               1         17%
                                                                   Yes                 5         26%
                                                                   No                  8         42%
                                                                   N/A                 6         32%

ACIO E-Government- Planning                                        In House            3         60%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Other)        1         20%
                                                                   Other               1         20%
                                                                   Yes                 3         16%
                                                                   No                  8         42%
                                                                   N/A                 8         42%

ACIO Capital Planning Inf. Management-Cap. Planning                In House            1         33%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Other)        1         33%
                                                                   Other               1         33%




                        Controls Over Treasury’s Working Capital Fund Expense Process Need                 Page 33
                        Improvement (OIG-08-041)
                        Appendix 2
                        Survey Questions and Results



5. Please check yes or no if you feel that your bureau or agency could obtain the services it currently
receives from the WCF at a lower cost from another source or sources. If yes, please indicate from
which source. If it is from another source, please specify in the available space. If your bureau or
agency does not participate in or use a listed program or service, please check the box in the "N/A"
column.
Program                                                            Survey Results    Total    Percentage
                                                                   Yes                 3         16%
                                                                   No                  8         42%
                                                                   N/A                 8         42%

ACIO Capital Planning Inf. Management-Info. Mgmt                   In House            1         33%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Other)        1         33%
                                                                   Other               1         33%
                                                                   Yes                 3         17%
                                                                   No                  8         44%
                                                                   N/A                 7         39%

ACIO Telecommunications- Secure Comm. Center                       In House            1         33%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Other)        1         33%
                                                                   Other               1         33%
                                                                   Yes                 3         16%
                                                                   No                  7         37%
                                                                   N/A                 9         47%

ACIO Telecommunications- Secure Equip Res                          In House            1         33%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Both (In-
                                                                   House/Other)        1         33%
                                                                   Other               1         33%
                                                                   Yes                 1          5%
                                                                   No                  4         21%
                                                                   N/A                 14        74%
ACIO Telecommunications VAX Computer
                                                                   In House            0          0%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Other               1         100%




                        Controls Over Treasury’s Working Capital Fund Expense Process Need                 Page 34
                        Improvement (OIG-08-041)
                        Appendix 2
                        Survey Questions and Results



5. Please check yes or no if you feel that your bureau or agency could obtain the services it currently
receives from the WCF at a lower cost from another source or sources. If yes, please indicate from
which source. If it is from another source, please specify in the available space. If your bureau or
agency does not participate in or use a listed program or service, please check the box in the "N/A"
column.
Program                                                            Survey Results    Total    Percentage
                                                                   Yes                 3         16%
                                                                   No                  10        53%
                                                                   N/A                 6         32%
Emergency Preparedness
                                                                   In House            1         33%
                                                                   Contract
                                                                   Vendors             1         33%
                                                                   Other               1         33%
                                                                   Yes                 3         16%
                                                                   No                  9         47%
                                                                   N/A                 7         37%
Small & Disadvantaged Business Utilization
                                                                   In House            1         33%
                                                                   Contract
                                                                   Vendors             1         33%
                                                                   Other               1         33%
                                                                   Yes                 3         16%
                                                                   No                  9         47%
                                                                   N/A                 7         37%
Procurement Program
                                                                   In House            1         33%
                                                                   Contract
                                                                   Vendors             1         33%
                                                                   Other               1         33%
                                                                   Yes                 2         11%
                                                                   No                  8         42%
                                                                   N/A                 9         47%
E-Government (IAE)
                                                                   In House            1         50%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Other               1         50%
                                                                   Yes                 3         16%
                                                                   No                  9         47%
                                                                   N/A                 7         37%
Non-CIO Government-wide Council Payments
                                                                   In House            1         33%
                                                                   Contract
                                                                   Vendors             1         33%
                                                                   Other               1         33%




                        Controls Over Treasury’s Working Capital Fund Expense Process Need                 Page 35
                        Improvement (OIG-08-041)
                         Appendix 2
                         Survey Questions and Results



5. Please check yes or no if you feel that your bureau or agency could obtain the services it currently
receives from the WCF at a lower cost from another source or sources. If yes, please indicate from
which source. If it is from another source, please specify in the available space. If your bureau or
agency does not participate in or use a listed program or service, please check the box in the "N/A"
column.
Program                                                            Survey Results    Total    Percentage
                                                                   Yes                 5         26%
                                                                   No                  8         42%
                                                                   N/A                 6         32%
Financial Systems Integration
                                                                   In House            2         40%
                                                                   Contract
                                                                   Vendors             2         40%
                                                                   Other               1         20%
                                                                   Yes                 3         16%
                                                                   No                  8         42%
                                                                   N/A                 8         42%
Environment, Safety, and Health
                                                                   In House            2         67%
                                                                   Contract
                                                                   Vendors             0          0%
                                                                   Other               1         33%
                                                                   Yes                 8         44%
                                                                   No                  5         28%
                                                                   N/A                 5         28%
Printing Procurement Services
                                                                   In House            3         38%
                                                                   Contract
                                                                   Vendors             4         50%
                                                                   Other               1         13%
                                                                   Yes                 6         33%
                                                                   No                  6         33%
                                                                   N/A                 6         33%
Printing Reproduction Services
                                                                   In House            2         33%
                                                                   Contract
                                                                   Vendors             4         67%
                                                                   Other               0          0%
                                                                   Yes                 7         37%
                                                                   No                  6         32%
                                                                   N/A                 6         32%
Graphics Services
                                                                   In House            2         29%
                                                                   Contract
                                                                   Vendors             4         57%
                                                                   Other               1         14%




                         Controls Over Treasury’s Working Capital Fund Expense Process Need                Page 36
                         Improvement (OIG-08-041)
                         Appendix 2
                         Survey Questions and Results



5. Please check yes or no if you feel that your bureau or agency could obtain the services it currently
receives from the WCF at a lower cost from another source or sources. If yes, please indicate from
which source. If it is from another source, please specify in the available space. If your bureau or
agency does not participate in or use a listed program or service, please check the box in the "N/A"
column.
Program                                                               Survey Results      Total     Percentage
                                                                      Yes                   2          11%
                                                                      No                    7          37%
                                                                      N/A                   10         53%
Communications, Information, & Locator Center
                                                                      In House              1          50%
                                                                      Contract
                                                                      Vendors               0           0%
                                                                      Other                 1          50%
                                                                      Yes                   4          21%
                                                                      No                    13         68%
                                                                      N/A                   2          11%
WCF Support Services
                                                                      In House              3          75%
                                                                      Contract
                                                                      Vendors               0           0%
                                                                      Other                 1          25%

6a. If given the opportunity, are there any WCF
programs or services that your bureau or agency
would rather not participate in?

                 Yes         No
Percentage       63%         37%


6b. If yes, please list each WCF program or service that your bureau or agency would consider not
participating in and the reason.
Program Name             Reason
CIO, Egov, Security      All services that have to do with Bureau Oversight.
Security, Telecomm. -    More Flexibility, integration with other OCC phone systems, lower costs.
DTS
(1) Printing             (1) No value added middle man, (2) SHIMS does not meet our needs, have a more
Procurement Services     robust system that is used in-house.
- (2)Environmental,
Health and Safety
HRConnect                No reason provided.
Printing                 Faster, cheaper, and more reliable services are available.
Security, HRConnect      Prospective cost savings, WCF program is expensive, inflexible and appears to be
Ops, ACIO                arbitrary. Could self support for less cost in some areas but must pay for services not
Telecommunications,      needed.
ACIO Cyber Security,
ACIO E-Government,
ACIO Capital Planning,
Emergency, Financial
Services, Printing and


                         Controls Over Treasury’s Working Capital Fund Expense Process Need                        Page 37
                         Improvement (OIG-08-041)
                         Appendix 2
                         Survey Questions and Results




6b. If yes, please list each WCF program or service that your bureau or agency would consider not
participating in and the reason.
Program Name             Reason
Graphic, and WCF
Support




(1)DTS,                  (1) Use GAS WITS, (2) do not use, (3) would use other agency, (4) would use other
(2)Printing/Graphics,    agency.
(3)Small Business,
(4)Procurement
(1) Printing             (1) We do not use this service, (2) we are not currently using them and do not pay.
Reproduction, (2) HR
Connect and NFC
(1) ACIO Telecom.        (1) Does not see benefits, (2) Don't believe this additional layer of paperwork and cost is
VAX, (2) Printing        necessary, (3 & 4) in house capability.
Procurement, (3)
Printing Reproduction,
(4) Graphics
All programs             They are mandated services; no real incentives or reduced costs. WCF should have to
                         compete with other providers for business.
Security, HRConnect      We believe we can do it for less money and the service would be more applicable to our
Ops, ACIO                bureau's needs.
Telecommunications,
ACIO Cyber Security,
ACIO E-Government,
ACIO Capital Planning,
Emergency, Financial
Services, Printing and
Graphic, and WCF
Support
TCS                      DHS supplied.


7a. Would your agency or bureau
want WCF to add programs or
services beyond those currently            7b. If yes, which program(s) or service(s) would your agency or
included?                                  bureau want to have added?

                 Yes        No             Program(s) or Service(s)
Percentage         0%        100%          *No agencies/bureaus responded to 7b




                         Controls Over Treasury’s Working Capital Fund Expense Process Need                      Page 38
                         Improvement (OIG-08-041)
                          Appendix 2
                          Survey Questions and Results



8a-d. Are you satisfied with the amount of information that WCF
provides to your bureau or agency regarding the following:
                                             Survey
                Program                      Results        Total    %
                                             Yes             13     68%
a. WCF Collection
                                             No               6     32%
                                             Yes             11     58%
b. Cost Allocation Methodologies
                                             No               7     37%
                                             Yes             11     58%
c. Billing
                                             No               7     37%
                                             Yes              9     47%
d. Program Expenses
                                             No              10     53%

8e-f. Are you satisfied with the amount of information that WCF provides to your bureau or agency regarding
the following:

E. Other*    F. If you answered no to any of the questions above please explain.
             Bureaus are not always informed on the methodologies used to determine specific allocation for each
             of the multiple accounts of notified of subsequent changes. Detail reports are not provided on
             transaction detail expenditures on the individual accounts.
             ITS: Treasury continually changes its annual funding estimates for IT-related WCF programs. If a
             vendor continually increased our costs the same way, we would find another vendor.
             We would like as much detail as possible on expenses including the names of those employees that we
             are funding and all related expenses.
             It has not been a straightforward or easy process in reconciling against the actual costs incurred and
             those billed.
             WCF should provide a listing of itemized expenses when customers are billed. Why we are charged
             what we are charged is a mystery.
             Bureaus are not included in the decision process for expanding services, enhancing and developing a
             system but are billed for them; [we] believe many enhancements that are billed are not appropriate;
             need more detailed explanation of the annual program increases; would like to see quarterly reports for
             actual expenses; would like to see costs allocated based on the actual level of support rather than by a
             percentage of the customer base for some programs.
             Until FY07, allocations have been largely administered by other agency. FY07 was this bureau's first
             year w/ sole responsibility for its allocations and is slowly building internal processes for WCF review
             and monitoring. Current perception is that there is insufficient transparency into how program expenses
             are calculated, the value of services received from those programs and how WCF dollars are spent to
             deliver those programs.
             CIO information is pretty good. Other programs do not provide adequate explanation of the service of
             benefits.
             In the financial plans received, this bureau has to constantly instruct DO to make corrections and
             remove its expenses from other agency’s financial plans, which prolongs and complicates the
             budgeting and billing process. This bureau can never reconcile its balances with DO since it is told that
             additional obligations are "in the hopper", yet it is not provided the details of those obligations.
             They have provided much better information in the past couple years.
             Amounts due are explained clearly. The methodology for arriving at collection costs and/or the actual
             tasks/activities performed within the various program areas are not clearly defined and/or explained.
             Many program descriptions seem to be policy related and not shared service related. The WCF should
             utilize a shared service provider model and bureaus should be able to purchase the services they need.
             The process needs to have more transparency.

             * No agencies/bureaus responded to 8e


                          Controls Over Treasury’s Working Capital Fund Expense Process Need                     Page 39
                          Improvement (OIG-08-041)
                           Appendix 2
                           Survey Questions and Results




 9. Does your office regularly receive timely information from the
 WCF regarding the following:
                                             Survey
                 Program                     Results       Total   %
                                                Yes             15     75%
 a. WCF Collection
                                                No               5     25%
                                                Yes             12     63%
 b. Cost Allocation Methodologies
                                                No               7     37%
                                                Yes             15     75%
 c. Billing
                                                No               5     25%
                                                Yes             11     58%
 d. Program Expenses
                                                No               8     42%


10a. Is your bureau or agency                                                                 10c. Is your bureau or
satisfied with the way the WCF                 10b. Is your bureau or agency                  agency satisfied with the
budget formulation process is                  satisfied with the way the new                 way increases outside the
handled (i.e. OMB and                          initiatives are vetted through your            budget process are
Congressional Submissions)?                    agency?                                        handled?

                 Yes          No                                Yes           No                               Yes       No
Percentage       50%         50%               Percentage       53%          47%              Percentage       44%      56%


10. Please explain further if necessary.
ITS: Treasury continually changes its annual funding estimates for IT-related WCF programs. If a vendor continually
increased our costs the same way, we would find another vendor.
Budget process is not timely and new initiatives are not weighed against each other or existing initiatives to ensure that
we are investing for best value and highest return on investment.
There are times when the annual WCF budget has been established and we later receive requests to cover additional
expenses. For budgeting purposes, it would be good for the bureau to know the actual cost at the time the annual WCF
budget is established.
We would like to see greater lead time when increases are planned or implemented.
See response to Question 8. In addition, service expansions and system enhancements/developments should be planned
and funded consecutively within the budget formulation process so bureaus could seek additional funding within the
regular appropriations process as appropriate.
The ability to decide upon a particular initiative's value to the organization is often limited due to the time allotted for
informing and vetting questions, concerns, comments. The ability to control increases outside of the budget process often
means an increased collection for WCF expenses previously unforeseen.
It seems that when increases are requested, Bureaus are notified after-the-fact and told that they will have to come up
with the increases. They are not provided an opportunity to be involved in discussions before the programs are increased.
WCF increases should be included in Budget Formulation and not a surprise in Budget Execution.
Increase outside the budget process need more detailed justification. The increases should be evaluated carefully to
determine that they are not excessive. Increases must follow the appropriated bureau budget formulation cycle. The
WCF should not be going up in cost when most of the bureaus budgets are going down. The WCF assumes the base is
automatically funded. This creates an impression of inefficiency. The entire WCF budget should be justified or some roll-
over base funding should be agreed to with the bureaus.
N/A. Currently only uses the Treasury WCF for secure telecommunications on international matters. All other services for
are provided by other agency or private vendors. Appreciates the services it is getting from the WCF but does not see any
increases for need for any additional services. Since our support is very limited in nature, I don't feel answering some of
the questions are appropriate.


                           Controls Over Treasury’s Working Capital Fund Expense Process Need                        Page 40
                           Improvement (OIG-08-041)
                            Appendix 2
                            Survey Questions and Results




11a. Do you think the method                11b. Do you receive sufficient               11c. Do you think the cost
used to determine the                       explanations when WCF                        allocation to the
advance collection is                       needs to collect additional                  bureau/agency for services
reasonable?                                 funds during the year?                       are reasonable?

Bureau/Agency     Yes        No             Bureau/Agency       Yes      No              Bureau/Agency      Yes       No
Percentage        75%       25%             Percentage          58%     42%              Percentage         55%      45%



 12. How would you describe the overall benefit that your
 agency or bureau receives through its participation in the
 WCF?

 Bureau/Agency     Excellent    Good       Fair         Poor
 Percentage          14%          38%        38%          10%

                                                        13b. If yes, was your bureau or
 13a. Has your bureau or agency                         agency satisfied with how WCF
 been able to provide feedback or                       handled the feedback or
 suggestions to the WCF program?                        suggestions?

 Bureau/Agency        Yes          No                   Bureau/Agency         Yes         No
 Percentage           80%         20%                   Percentage            53%        47%


 14. Please provide comments on areas of improvement in the WCF your bureau or agency would like to see.
 A complete scrub of all WCF indirect costs by the appropriate WCF office resulting in each WCF program identifying
 and reducing costs in all areas of shared costs that are not absolutely essential. Bureaus need to be included in the
 decision making process for any new hires being charged to this account instead of finding out after the fact and
 being billed without input. Tracking of FTE before, during, and at the end of the fiscal year. Accountability of
 resources, bureaus needs detail accounting of resources being spent on working capital fund expenditures by
 account. Bureaus require detail tracking of each program back to the individual accounts. Types of activities covered
 under the working capital fund need to be screened to eliminate business type activities that should be covered
 under DO appropriations for which they should be budgeting for with appropriate documentation (business cases,
 etc.) for justification to OMB and Congress for example -- charging of blackberries, the budget formulation system
 (BFM).
 Believe we are being passed thru a much larger percent of costs now that there are fewer agencies. Also feel the
 billings could be timelier. Twice a year does not provide our program offices any idea of what these programs are
 costing. Not paying in advance was the reason given for the delay-which does not make sense. Departmental Offices
 still needs to know the amount of program usage whether paying in advance or arrears. Security: The most important
 information we need to get across is that other than the NC4 Alert System, we CIPS (Critical Infrastructure Protection
 and Security) are unclear on exactly what services are being provided by the Treasury DO in the areas of Security
 and Emergency Management.
 EEO: Treasury EEO and Diversity must retain jurisdiction over some programs, such as final decisions and
 complaints tracking, to comply with regulations; however, Treasury may want to explore other cost effective means to
 deliver services to let customers know that it regularly evaluates the best and most efficient way to do business. The
 reimbursable agreement with for investigative services is an area of greater concern than the WCF. Treasury's
 services under the WCF are relatively satisfactory; however, the reimbursable for complaints services merits review.




                            Controls Over Treasury’s Working Capital Fund Expense Process Need                    Page 41
                            Improvement (OIG-08-041)
                          Appendix 2
                          Survey Questions and Results




14. Please provide comments on areas of improvement in the WCF your bureau or agency would like to see.
I did not see HSPD-12 on the list of projects and wonder it its omission was intentional. The funding and manner in
which this project was handled highlight some of the problems with use of the WCF. We were dragged into this
project. There was never a business case prepared to justify such a large project and there has been a lack of cost
transparency. We have never seen system life cycle costs or a cost benefit analysis. The direction and goals for this
initiative have changed dramatically and there has not been any real discussion on what we are going to receive, in
value, for this investment. There was a similar lack of Bureau input on the decision to pursue TCE outside of GSA.
On TCS, it takes a long time to get services established, but once they are established service is OK. I think that
many of the costs that are paid for through the WCF are Departmental in nature and should be funded through
appropriations. This is especially true in the CIO oversight area.
We would like earlier notification of carryover amounts.
The Department needs more advance planning and bureau participation in decision making for program expansions
and system enhancements/development. The HR Connect program needs to find ways to reduce capital costs to
become more competitive with the other HRLOB service providers. The planning process for the WCF needs to
include all stakeholders. When the Department decides that a certain course of action is relevant, stakeholders need
to be involved in both the planning and execution stages.
The evolution of the WCF for this bureau has complicated its ability to fully assess cost effectiveness and/or
satisfaction with many of the WCF programs. One suggestion may be to have the Treasury CIO controlled initiatives
be fully vetted thru the CIO Council and its sub-councils. This should include clear information on what the WCF is
funded in each area and routine information on program budget formulation, execution and level or performance.
For example, security program costs should be vetted through the Cyber security Sub-Council; similarly,
telecommunications programs should be vetted through the Telecommunications Sub-Council. This would help
guarantee that appropriate subject matter experts are involved with WCF programs and facilitate more effective flow
of information within CIO functions (bureau and department) as well as between CIO and CFO groups.
Obligated, not expensed. Do not understand why we cannot receive reports that show unobligated balances,
advance collected, obligated amounts, expenses, balance remaining. Why does it take so long to determine
unobligated balances? Costs are being assessed with other agency. Would like to see explanation of benefits that
we would receive with each WCF program we pay into. Would like to see more accurate Employee Express
quarterly reports generated by OPM. Would like copy of completed IAA containing final signatures more timely.
Timelier manner for reporting costs for SHIMS. Would like a breakdown of services provided in Security Programs.
Bureaus should be allowed to provide input for HSPD-12 assessments. More specific, detailed information on each
program. Would like the chance to vote on need for WCF programs. Detailed billing for what has been collected, still
needs to be collected, services that are being paid for, methodology for our bureau, and what is carried over to pay
for services from previous collections. Bureau should be able to opt out of a WCF program if we are not using it, like
printing and graphic program.
More services into a competitive environment and run the Fund like a business. Give customers an option to leave.
Coordinating WCF approvals through the bureau CFO rather than directly to the program office. The opportunity to
opt out of programs that do not directly support our mission/objectives/goals. The WCF be required to operate within
the funding level that is approved for the budget year. Significant time has been spent on performing reviews of WCF
programs and processes. Very little action has been taken to address the issues raised in the interviews. A
governance structure needs to be put into place with Bureau representation.
Due to reorganization, no comments.




                          Controls Over Treasury’s Working Capital Fund Expense Process Need                     Page 42
                          Improvement (OIG-08-041)
Appendix 2
Survey Questions and Results




The following WCF customers responded to our survey:

•   Alcohol and Tobacco Tax and Trade Bureau
•   Office of the Comptroller of the Currency
•   Office of DC Pensions
•   Bureau of Engraving and Printing
•   Treasury Executive Office for Asset Forfeiture
•   Federal Financing Bank
•   Financial Management Services
•   Internal Revenue Services
•   Office of the Inspector General
•   Treasury Inspector General for Tax Administration
•   Office of Thrift Supervision
•   Bureau of the Public Debt
•   Treasury Franchise Fund
•   The United States Mint
•   Department of Housing and Urban Development
•   Bureau of Alcohol, Tobacco, Firearms and Explosives,
    Department of Justice
•   Department of Homeland Security (Headquarters)
•   Federal Law Enforcement Training Center, Department of
    Homeland Security
•   Office of Inspector General, Department of Homeland Security
•   US Secret Service, Department of Homeland Security

The following WCF customers did not return a survey to OIG:

•   Community Development Financial Institution Fund
•   Departmental Offices
•   Financial Crimes Enforcement Network
•   U.S. Tax Court




Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 43
Improvement (OIG-08-041)
  Appendix 3
  Management Response




Note: Signature was removed from response.




  Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 44
  Improvement (OIG-08-041)
Appendix 3
Management Response




Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 45
Improvement (OIG-08-041)
Appendix 3
Management Response




Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 46
Improvement (OIG-08-041)
Appendix 4
Major Contributors To This Report




Kieu Rubb, Director, Procurement and Manufacturing Audits
Delores Dabney, Audit Manager
Shaneasha Edwards, Program Analyst-in-Charge
Regina Morrison, Auditor
Fawntrella Willis, Auditor
John Gauthier, Auditor Trainee (Student)
Myung Han, Management Analyst/Statistician
Mark Ossinger, Referencer




Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 47
Improvement (OIG-08-041)
Appendix 5
Report Distribution




Department of the Treasury

Assistant Secretary for Management and Chief Financial Officer
Deputy Chief Financial Officer
Director of the Office of Financial Management
Working Capital Fund Corporate Manager
Office of Accounting and Internal Controls
Office of Strategic Planning and Performance Management

Office of Management and Budget

OIG Budget Examiner




Controls Over Treasury’s Working Capital Fund Expense Process Need   Page 48
Improvement (OIG-08-041)
